I

1-5221

O. __________________________

n

IN THE
supreme Court, U S_
FILED

SUPREME COURT OF THE UNITED STATES

JUL 2 1 2021
OFFICE of the 01 PPI,

ANDRE M..ADAMS

— PETITIONER

(Your Name)
SUPERINTENDENT SCI ^NTINGDON,
COMMONWEALTH OF PA.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THIRD CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANDRE M. ADAMS # KY-4693

(Your Name)
SCI-HUNTINGDON
1100 PIKE STREET

(Address)
HUNTINGDON, PA. 16654-1112

(City, State, Zip Code)

ReceIve5

N/A

(Phone Number)

*

2 7 2021

Ill

□ST“OF "PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Attorney General of Pennsylvania->(Representing the Commonwealth)
Strawberry Square, 16th Floor
Harrisburg, Pa. 17120

RELATED CASES

IV

TABLEOFCONTENTS
1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A

THIRD CIRCUIT COURT OF APPEALS

APPENDIX B

UNITED STATES DISTRICT COURT (OPINION)

APPENDIX C

OFFICIAL TRANSCRIPT OF JANUARY 3, 2013
PAGES 62,63,64,65.66,67. <EMPHASIS>

APPENDIX D
APPENDIX E
APPENDIX F

(ORDER)

V

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

FEDERAL CASE CITES:
FARETTA V. CALIFORNIA 9 95 S.CT. 2525 (1975)

8

GIDEON V. WAINWRIGHT, 372 U.S. 335 (1963)

6,8

MARTINEZ V. COURT OF APPEALS, 120 S.CT. 684 (2000)

6

POWELL V. ALABAMA, 287 U.S. 45 (1932)

6

UNITED STATES V. GOLDBERG, 67. F.3D 1092 (3D CIR.1995)

7

UNITED STATES V. STUBBS, 281 F.3D 109 (3D CIR. 2002)

8

UNITED STATES V. THOMAS, 357 F.3D 357 (3D CIR 2004)

7'

STATE CASE CITE:
COMMONWEALTH OF PA. V. BASEMORE, 582 A.2D 861 (1990)

OTHER
SIXTH AMENDMENT AND FOURTEENTH AMENDMENT

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
P5 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix -A----- to
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at-----[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
£x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
<------was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
__(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
THIS IS TIMELY FILED. NO EXTENSIONS WERE REQUESTED.

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
___________________
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

SIXTH

AMENDMENT

FOURTENTH

DUE

AMEN

DMENT

PROCESS

Qthe right to be represented by counsel in a CRIMINAL TRIAL D

3.

STATEMENT OF THE CASE
PETITIONER FORCED TO TRIAL WITHOUT COUNSEL.
NO PRO-SE COLLOQUY OR WAIVER HEARING CONDUCTED.
THIS WAS AN EXTREMELY SERIOUS TRIAL CONSISTING OF SERIOUS CASES
INVOLVING CONTROLLED SUBSTANCE VIOLATIONS OF LAW AND OTHER
.RELATED CRIMINAL CHARGES. THE SENTENCE WAS: 158 YEARS. <EMPHASIS>
PETITIONER FILED A §2254 HABEAS CORPUS & IT WAS DENIED.
THE THIRD CIRCUIT COURT OF APPEALS DENIED A C.O.A..

In this instant case

the Petitioner received a 158 year sentence

after being convicted at trial by a jury in Centre County, Pennsylvania
in Central Pennsylvania. The Attorney General Office of Pennsylvania
led the investigation and the prosecution of the Petitioner.
The Petitioner was "forced" to trial without counsel and forced
to represent himself, during the trial. <EMPHASIS>
The Petitioner did not want to represent himself at trial, but
the trial court judge forced the Petitioner to proceed to trial
pro-se. NOTE: There was never a pro—se colloquy or a waiver of trial
counsel. WHAT HAPPENED WAS ALMOST UNBELIEVABLE IN AMERICAN LAW. But
it did happen in Centre County, Pennsylvania. Petitioner was forced
to go to trial and represent himself in a serious criminal case that
resulted in a 158 year sentence. (State Court ruled: Forfeiture of Counsel).
THIS CANNOT BE PERMITTED BY THIS COURT.
Petitioner is an African American from Philadelphia and was
before an all white court
trial.

all white lawyers, and denied a fair

PETITIONER NEEDED COUNSEL.
flSEE APPENDIX [C] Q

4.

(COUNSEL WAS REQUESTED)
< N.T. 1-3-2°13, p.62>

REASONS FOR GRANTING THE PETITION

PETITIONER'S SIXTH AMENDMENT RIGHT TO COUNSEL
IN A CRIMINAL CASE TRIAL WAS NOT AFFORDED TO
THE PETITIONER. THIS WAS A SERIOUS CRIMINAL
CASE (PETITIONER RECEIVED 158 "YEAR"SENTENCE)
AND HE WAS FORCED TO GO TO TRIAL WITHOUT A
FORCED TO REPRESENT HIMSELF.
LAWYER.
NO FARETTA V. CALIFORNIA, colloquy.

.

NO WAIVER of counsel hearing.
PETITIONER asked for counsel for the trial. SEE THE
ATTACHED TRANSCRIPT PAGES.
PETITIONER IS AN AFRICAN AMERICAN.
PETITIONER WAS DENIED A FAIR TRIAL.

This is a case for the books. Almost no' one would believe what
took place here. There are factors that should be considered.
First: The Petitioner is an African American, Second: The Judges
involved and the prosecution and all lawyers are Anglo Americans,
(white).
The Petitioner was facing serious charges (drug related cases),
and received a 158 "YEAR" sentence,

(That is more than a human

can live to serve out).
The Petitioner never caused any physical disturbance (NONE) in
Court or Hearings. None at all.
The Petitioner presented "respectful" verbal arguments and did
assert verbally, that he believed he was not being treated fairly.
Petitioner never brought up race. He argued his opinion on laws and
rules that were involved with his case and his defense.

5.

There was never a personal attack on the Judge1, lawyers etc. There
was verbal legal argument (yes) but that pertained to the case,

and

the legal issues being discussed. NEVER DID THE PETITIONER HAVE TO
BE REMOVED FROM THE COURTROOM OR GAGGED. The arguments were civil,
and—involved legal issues.
THIS INSTANT CASE AND THE CIRCUMSTANCES DID NOT EVEN COME CLOSE
TO HAVE THE PETITIONER'S RIGHT TO COUNSEL (6TH AMENDMENT) BE ORDERED
FORFEITED.

<EMPHASIS>

It is the representation by counsel that is the standard, not
the exception. MARTINEZ V. COURT OF APPEALS, 120 S.Ct. 684 (2000).
POWELL V. ALABAMA, 287 U.S. 45 (1932). This Court's landmark case
GIDEON V. WAINWRIGHT,BGUARANTEED THE RIGHT TO COUNSEL IN ALL CRIMINAL
TRIALSj and GIDEON is to be embraced here as well.
instant case

Here in this

the Petitioner was forced to proceed to trial without

counsel—but the Petitioner wanted counsel. SEE PAGE 62 in appendix
"C"

attaced.

THE DEFENDANT:

—but I don't have any way to

represent myself—I NEED A LAWYER. I would ask the court to appoint
me a lawyer... <EMPHASIS>

N.T. 1-3-2013,<p. 62>attached,

The Petitioner clearly asked the court to appoint counsel but in
this instant case, counsel was not appointed, as requested.
The State Court Judge decided that the Petitioner forfeited his
right to counsel. SEE N.T. 1-3-2013, <p. 62>. THE DEFENDANT: What did
I do to lose my right ?

The State Judge ignored that question.
6.

The point is, the Petitioner did nothing whatsoever to forfeit
his right to counsel, at trial. Forfeiture of counsel cannot be
allowed, unless there is strong evidence of a defendant's very
extreme serious misconduct. U•S. v. Thomas x 357 F.3d 357, 362
(3d Cir. 2004); United States v. Goldberg, 67 F.3d 1092, 1100-02
(3d Cir. 1995).
Here, the Petitioner was not verbally abusive to the judge or
any lawyer, never, ever, made any threats to harm his attorney, and
never asked an attorney to engage in unethical activities. NEVER DID
THE PETITIONER DO ANY OF THESE.
PETITIONER SHOULD NOT HAVE HAD TO PROCEED TO TRIAL PRO SE. HE
DID NOT WANT TO. HE ASKED FOR COUNSEL. N.T.1-3-2013 <p. 62> attached
EMPHASIS.

as APPENDIX "C" to this Petition.

• Look at COMMONWEALTH V. BASEMORE, 582 A.2d 861, 867-68 (1990).
Basemore demonstrated outrageous disruptive behavior but he did not
suffer forfeiture of his right to counsel.
The CHICAGO 7,

EMPHASIS.

demonstrated disruptive behavior and they did not

forfeit their right to counsel,

Charles Manson,

demonstrated very

disruptive behavior and he did not forfeit his right to counsel.
FORFEITURE OF COUNSEL WAS ABSOLUTELY WRONG IN THIS INSTANT CASE.
The Petitioner did nothing whatsoever to lose/forfeit his right to
be represented at trial by counsel. This was a very serious case_^
Petitioner was sentenced to 158 "YEARS" in prison.
7.

Most constitutional errors can be harmless, but some errors
are structural and are subject to automatic reversal. Forcing a
defendant to trial (such as happened here) without counsel, in
such a serious case as this (158 "YEAR" sentence) denies the
defendant a fair trial and here in this instant case denied the
Petitioner his Sixth Amendment right to be represented by counsel.
GIDEON V. WAINWRIGHT, the landmark case where This Court did hereby
establish the right of criminal defendants to be represented by
counsel for trial,

Petitioner made perfectly clear that hu wanted

to be represented by counsel at trial. N.T. 1-3-2013, pages 62,

lines

11 to 15. PETITIONER ASKS FOR COUNSEL.
N.T. 1-3-2013, page 62, lines 23-24: Petitioner asks the court
this : WHAT DID I DO TO LOSE MY RIGHTS ? (Right to counsel).
The State Court ignored the Petitioner.
Here , the erroneous denial of counsel, cannot be harmless.
UNITED STATES V. STUBBS,

281 F.3d 109, 118 (3d Cir. 2002).

There never was a waiver of counsel by the Petitioner, NEVER !
There never was a Faretta v. California colloquy. NEVER !
Instead the State Court decided that Petitioner forfeited his
Sixth Amendment right to counsel. The record shows that the said
Petitioner did nothing to warrant his right to be forfeited.
•

8.

to find
The United States District Court Judge was in error
that the Petitioner's verbal legal arguments met the standard
for forfeiture of his Sixth Amendment right to counsel. THE
NEVER !
PETITIONER WAS NEVER ABUSIVE TO COUNSEL OR TO THE JUDGE.
NOWHERE DOES THE RECORD SHOW THAT THE PETITIONER WAS ABUSIVE.
The State Court's order that forfeited Petitioner's right to
counsel (Sixth Amendment) was unreasonable and directly conflicts
with This Courts holding in GIDEON.
Also the State Court's order that forced Petitioner to go to
trial in such a serious criminal case was unreasonable and directly
conflicts with the holding of This Court in FARETTA V_^ CALIFORNIA.
What is perfectly clear is this : Petitioner was one African
American, alone, in a hostile court and among hostile lawyers,
who were all Anglo Americans (white).

The manner in which the

The
Petitioner was treated is a disgrace to the justice system.
record (transcripts) show that the Petitioner was treated like
someone less than human,

less than an American and less than

what every citizen expects of->State Court systems, concerning
fairness. Having to represent himself in such a serious case is
a mockery by the SLate Court and it s Court Officers, including
the books and needs to be made
the lawyers. This case is one for
right . Petitioner did not receive a fair trial.

9.

The Petitioner, in such a serious criminal case as this case is
should never have been forced to go to trial and represent himself
because the State Court decided the Petitioner forfeited his right
to counsel. Forfeiture of the Sixth Amendment right, in this instant
never
case , is outrageous and never should have happened. Petitioner
committed even one act against counsel or any court officer etc.,
that would have permitted forfeiting the right to counsel. See the
APPENDIX [C]. Counsel was requested, by Petitioner.<EMPHASIS>

CONCLUSION
The Petitioner was forced to represent himself in this serious
case. (158 "YEAR" sentence). This must be corrected.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

[XL
Date:

fit (Uwr^

7/20/7O7.1

10.

